<html>
<title> - IMPLEMENTATION OF SAFETEA:LU</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]







                      IMPLEMENTATION OF SAFETEA:LU

=======================================================================

                                (109-76)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    HIGHWAYS, TRANSIT AND PIPELINES

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 7, 2006

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure








                    U.S. GOVERNMENT PRINTING OFFICE

30-646 PDF                  WASHINGTON : 2007
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001




             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)


            SUBCOMMITTEE ON HIGHWAYS, TRANSIT AND PIPELINES

                  THOMAS E. PETRI, Wisconsin, Chairman

SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         NICK J. RAHALL II, West Virginia
JOHN J. DUNCAN, Jr., Tennessee       JERROLD NADLER, New York
JOHN L. MICA, Florida                GENE TAYLOR, Mississippi
PETER HOEKSTRA, Michigan             JUANITA MILLENDER-McDONALD, 
SPENCER BACHUS, Alabama              California
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
SUE W. KELLY, New York               EARL BLUMENAUER, Oregon
RICHARD H. BAKER, Louisiana          ELLEN O. TAUSCHER, California
ROBERT W. NEY, Ohio                  BILL PASCRELL, JR., New Jersey
FRANK A. LoBIONDO, New Jersey        TIM HOLDEN, Pennsylvania
JERRY MORAN, Kansas                  BRIAN BAIRD, Washington
GARY G. MILLER, California, Vice-    SHELLEY BERKLEY, Nevada
Chair                                JIM MATHESON, Utah
ROBIN HAYES, North Carolina          MICHAEL M. HONDA, California
ROB SIMMONS, Connecticut             RICK LARSEN, Washington
HENRY E. BROWN, Jr., South Carolina  MICHAEL E. CAPUANO, Massachusetts
TIMOTHY V. JOHNSON, Illinois         ANTHONY D. WEINER, New York
TODD RUSSELL PLATTS, Pennsylvania    JULIA CARSON, Indiana
SAM GRAVES, Missouri                 TIMOTHY H. BISHOP, New York
MARK R. KENNEDY, Minnesota           MICHAEL H. MICHAUD, Maine
BILL SHUSTER, Pennsylvania           LINCOLN DAVIS, Tennessee
JOHN BOOZMAN, Arkansas               BEN CHANDLER, Kentucky
MARIO DIAZ-BALART, Florida           BRIAN HIGGINS, New York
JON C. PORTER, Nevada                RUSS CARNAHAN, Missouri
TOM OSBORNE, Nebraska                ALLYSON Y. SCHWARTZ, Pennsylvania
KENNY MARCHANT, Texas                JAMES L. OBERSTAR, Minnesota
MICHAEL E. SODREL, Indiana             (Ex Officio)
DAVID G. REICHERT, Washington
JEAN SCHMIDT, Ohio
DON YOUNG, Alaska
  (Ex Officio)

                                 (iii)






























                                CONTENTS

                               TESTIMONY

                                                                   Page
 Bushue, Sandra, Acting Administrator, Federal Transit 
  Association, U.S. Department of Transportation.................     5
 Capka, J. Richard, Acting Administrator, Federal Highway 
  Administration, U.S. Department of Transportation..............     5
 Glassman, Jacqueline, Acting Administrator, National Highway 
  Traffic Safety Administration, U.S. Department of 
  Transportation.................................................     5
 Hill, John H., Acting Administrator, Federal Motor Carrier 
  Safety Administration, U.S. Department of Transportation.......     5
 Kaveeshwar, Dr. Ashok G., Administrator, Research and Innovative 
  Technology Administration, U.S. Department of Transportation...     5

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    95
Cummings, Hon. Elijah E., of Maryland............................    96
Johnson, Hon. Eddie Bernice, of Texas............................   102
Oberstar, Hon. James L., of Minnesota............................   104
Porter, Hon. Jon, of Nevada......................................   109
Tauscher, Hon. Ellen, of California..............................   110

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Bushue, Sandra..................................................    32
 Capka, J. Richard...............................................    32
 Glassman, Jacqueline............................................    32
 Hill, John H....................................................    32
 Kaveeshwar, Dr. Ashok G.........................................    32

                       SUBMISSIONS FOR THE RECORD

U.S. Department of Transportation:

  Responses to questions from Rep. Petri.........................    55
  Responses to questions from Rep. DeFazio.......................    77




















 
                      IMPLEMENTATION OF SAFETEA:LU

                              ----------                              


                        Wednesday, June 7, 2006

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Highways, Transit and Pipelines, Washington, 
            D.C.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2167, Rayburn House Office Building, Hon. Thomas E. Petri 
[Chairman of the subcommittee] presiding.
    Mr. Petri. The Subcommittee hearing will come to order. I 
would like to welcome you to today's oversight hearing on the 
Implementation of SAFETEA:LU. The hearing will provide members 
with information on the progress of the Administration's effort 
to implement recently enacted surface transportation 
reauthorization. Members will be able to ask Department of 
Transportation officials questions about the implementation 
progress of new programs and regulatory action.
    SAFETEA:LU strengthens the national commitment to increased 
safety and reduced highway fatalities by increasing a new core 
highway safety improvement program funded at over $5 billion, 
almost doubling Federal funding for infrastructure safety. The 
new High-Risk Rural Safety Improvement Program targets funding 
for safety improvements on rural two-lane roads where over 60 
percent of all highway related fatalities occur. And the new 
Safe Routes to School Program funds sidewalk, trail and other 
infrastructure improvements that will encourage children to 
safely walk or bike to school.
    Funding for the Federal Motor Carrier Safety Administration 
and the National Highway Traffic Safety Administration totaled 
$6.3 billion, more than twice the amount authorized for these 
safety agencies under TEA-21. SAFETEA:LU funds several programs 
that are specifically designed to improvement the movement of 
freight, including the new Coordinated Border Infrastructure 
Program, the National Corridor Infrastructure Improvement 
Program, and projects of national and regional significance.
    Several new Federal Transit Administration programs were 
created in SAFETEA:LU, including Small Starts, a program 
specifically geared to funding lower cost, fixed guideway 
projects and the new Freedom Program, which provides formula 
funds to support transportation services for the disabled that 
go beyond the requirements of the Americans with Disabilities 
Act, to reach some of the 70 percent of people with 
disabilities who do not work simply because they don't have a 
dependable way to get to work.
    The modal agencies of the Department of Transportation have 
been very busy implementing these new programs and putting into 
place the changes in transportation policy made in SAFETEA:LU. 
Altogether, the are over 100 rulemakings, either legislatively 
mandated or required because of the creation of new programs or 
changes to existing programs.
    We have invited five modal administrators from the 
Department of Transportation agencies affected by the 
reauthorization bill to testify before the Subcommittee today. 
We welcome Mr. Richard Capka, from the Federal Highway 
Administration; Ms. Sandy Bushue, from the Federal Transit 
Administration; John Hill, Federal Motor Carrier Safety 
Administration; Jacqueline Glassman, from the National Highway 
Traffic Safety Administration; and Dr. Ashok Kaveeshwar, from 
the Research and Innovative Technology Administration.
    The record of the hearing will be held open for 30 days. I 
now yield to Mr. DeFazio for any opening statement that he 
would care to make.
    Mr. DeFazio. Thank you, Mr. Chairman. Thank you for 
engaging in a little-known function of the United States 
Congress which I think is very important, which is oversight. 
We do write laws, create programs, and it is also, I believe, 
our duty to see that the laws are being properly implemented, 
the programs work well, and if they're not being properly 
implemented or the programs do not work well, it's also our 
duty to revisit those issues.
    There are a couple of concerns that I have regarding, 
particularly, SAFETEA:LU. I think there is some, again, sort of 
in the area of oversight or the difference between law and 
language and hortatory language and mandatory language, there 
was a provision in SAFETEA:LU which was a sense of Congress 
regarding Buy America. Now, Buy America is a pretty deeply 
embedded principle when it comes to transportation 
infrastructure and equipment. We are running huge, massive and 
growing trade deficits. And yes, sometimes we can get things 
that are subsidized in production overseas or unfairly 
produced, and they are a little cheaper.
    But the ripple effects through our economy through 
acquiring American-made products, employing Americans, far 
exceeds any of those minimalistic benefits. And so I do have 
some particular concerns about how the Federal Highway 
Administration is working off of a sense of Congress on Buy 
America as opposed to a statutory change.
    And I would defy anybody to tell me that they believe you 
can come to the floor of the United States House of 
Representatives and say, we should source major components of 
major projects funded fully with taxpayer dollars overseas. The 
few people who would vote for it wouldn't be back. And I think 
an Administration that overestimates the importance of 
hortatory language, as opposed to statutory changes, is walking 
a very dangerous path.
    With that particular caution, there are other concerns that 
are not yet fully developed or implemented in terms of this 
legislation, where I look forward to hearing from the 
Administration and making certain that we are on the right 
path, New Starts, there are some concerns about implementation 
of safety issues and concerns about recent disturbing trends in 
deaths and incidents on our highways and many other things.
    So I look forward to the testimony today and look at this 
as the opening of a long and productive dialogue over the full 
implementation of SAFETEA:LU. I congratulate the Chairman for 
holding this hearing. The room should be packed, but it's not.
    Mr. Petri. Well, it's fairly full.
    Any other opening statements? Mr. Blumenauer?
    Mr. Blumenauer. Thank you, Mr. Chairman. I do appreciate 
our moving back to take a look at what has happened with the 
reauthorization. Part of the concern with the 12 abstentions is 
that we have lots of complexity, lots of interest. There was 
time taken, and I know in things that I was involved with, to 
try and be clear about legislative intent and being able to 
extend the partnership with the Department of Transportation to 
make sure that we are doing so even as sadly we are starting to 
get reoriented to go back for another reauthorization, which is 
less than four years away.
    One of my primary projects in the reauthorization was the 
Small Starts program, the idea to give flexibility to 
communities and the Department of Transportation, with 
something that could be more effective in terms of being able 
to give a choice to communities that would be less than heavy 
rail or light rail. The program was in the main modeled after a 
community street car bill that I had introduced with the aim of 
giving communities a means of supporting fixed guideway transit 
systems in their communities, to give them options and allow 
them to develop an expedited process. You know, less 
bureaucratic function.
    And most important, most important to be able for 
communities to be able to consider land use and economic 
development benefits while planning transit projects. That is 
the idea, to be able to reduce the concern for large scale 
suburban to urban movements on roads and light rail, to be able 
to have development around these extraordinarily successful 
projects.
    Unfortunately, as I am looking from a distance and as I am 
talking to people who are representing the 84 communities 
around the Country that are interested in street cars, some of 
which are already building it, the material we are seeing to 
date seems to fall far short of the mark in terms of being able 
to look comprehensively at the economic and land use benefits. 
It looks like the only fixed guideway that is going to be 
favored under this approach would be bus rapid transit. I have 
got nothing against bus rapid transit. We have got a project 
that is going forward in my colleague, Mr. DeFazio's, district 
in Eugene that I think has great benefit.
    But the notion of the Small Starts was to have the forces 
of economic development and land use to enable people to move 
forward with street car. And I am deeply troubled that what is 
coming forward in the Department at this point did not comply 
with our intent to provide the guidelines that will ensure that 
street car projects can move forward. And I look forward to 
hearing more from the Department, talking about it and being 
able to explore that in greater detail.
    I am also concerned about the impacts for local planning 
and the way that the local planning provisions are being 
implemented. There is a specific directive under the 
reauthorization that the DOT not require metropolitan areas to 
disrupt established planning time tables and extended the 
updated schedule by three to four years. But under FHA's 
interpretation, according to the people that I represent back 
home, from a fairly sophisticated NPO, that is usually held out 
as a model for trying to do this right, they would be unable to 
amend their metropolitan transportation improvement program on 
its established time line, unless it first amends its regional 
transportation plan a year earlier than it is required to do.
    So I have folks back home, despite explicit language in the 
reauthorization, that I thought we were in accord, who had been 
given the choice to rush the regional transportation plan and 
produce it a year ahead of schedule, push back the 
transportation improvement program an additional year, an 
option that appears to me to be a bad one.
    But more to the point, Mr. Chairman, it doesn't seem to me 
that that is what we intended with reauthorization. And I am 
curious to begin exploring how the Department of Transportation 
is addressing the conundrum that my community is facing, and 
perhaps, I am sure we are not unique. But we take the planning 
process very seriously. I think any objective observer would 
suggest that Portland has actually been a model over the last 
20 years, coaxing more out of the transportation planning 
process and the investment that we have made with Federal 
funds. And we have been able to do this with Republican and 
Democratic administrations under the last three 
reauthorizations. And this does trouble me, in terms of what I 
am hearing back home, and hope that we can clarify it. Thank 
you, Mr. Chairman.
    Mr. Petri. Thank you.
    Are there other opening statements? Ms. Berkley.
    Ms. Berkley. Thank you, Mr. Chairman. Thank you very much 
for holding this important hearing on the implementation of 
SAFETEA:LU, and thank all of you for being here.
    This historic legislation, which Congress passed last year 
after several years of work by this Committee, is vitally 
important for my district. Southern Nevada is one of the 
fastest growing parts of this Country, and Federal resources 
provided in SAFETEA:LU are essential to ensure that our 
transportation infrastructure keeps pace with our explosive 
growth.
    Transportation officials in Las Vegas have several major 
projects underway to increase highway capacity and efficiency 
and to expand our public transit system. Providing additional 
resources for these initiatives is not enough, however. We must 
also ensure that the new law is implemented in such a way that 
it complements the efforts of our State and local governments 
rather than ties them up with new and confusing regulatory 
burdens. I think that is the biggest concern that my regional 
transportation people have, is how do we, as they move forward, 
planning the projects that are underway, that the rug isn't 
pulled out from under them in new and different regulations 
that they have to go back to the drawing board.
    So I am anxious to hear whether your testimony addresses 
that, and if not, I will be asking the witnesses that very 
question when I have an opportunity to question you. So thank 
you very much for being here, and I look forward to your 
testimony.
    Mr. Petri. Now we will begin with the panel, led off by 
someone who has been here before with the Committee, Mr. 
Richard Capka, Administrator, Federal Highway Administration.

   TESTIMONY OF MR. J. RICHARD CAPKA, ACTING ADMINISTRATOR, 
      FEDERAL HIGHWAY ADMINISTRATION, U.S. DEPARTMENT OF 
   TRANSPORTATION; MS. SANDRA BUSHUE, ACTING ADMINISTRATOR, 
FEDERAL TRANSIT ASSOCIATION, U.S. DEPARTMENT OF TRANSPORTATION, 
MS. JACQUELINE GLASSMAN, ACTING ADMINISTRATOR, NATIONAL HIGHWAY 
       TRAFFIC SAFETY ADMINISTRATION, U.S. DEPARTMENT OF 
TRANSPORTATION, MR. JOHN H. HILL, ACTING ADMINISTRATOR, FEDERAL 
    MOTOR CARRIER SAFETY ADMINISTRATION, U.S. DEPARTMENT OF 
    TRANSPORTATION, DR. ASHOK G. KAVEESHWAR, ADMINISTRATOR, 
    RESEARCH AND INNOVATIVE TECHNOLOGY ADMINISTRATION, U.S. 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Capka. Thank you, Mr. Chairman and members of the 
Committee.
    It is a real pleasure for me and my fellow colleagues to 
appear once again before your Committee. On behalf of Secretary 
Mineta and the Department of Transportation, I want to express 
our genuine appreciation for this Committee's hard work on 
reauthorization.
    SAFETEA:LU authorizes a record level of investment for 
highway infrastructure, public transportation, highway and 
motor carrier safety programs and transportation research. It 
also provides valuable tools for increasing transportation 
safety, managing congestion and streamlining infrastructure 
construction. Secretary Mineta has made timely implementation 
of this legislation a top priority, and our agencies have 
worked aggressively and together to make the authorized funds 
available, to issue the guidance and regulations necessary to 
carry out SAFETEA:LU, and to make progress in our reports to 
Congress.
    For instance, this past week, the Department delivered the 
Catastrophic Hurricane Evacuation Plans Study to Congress on 
time on the 1st of June. Overall, implementation is going 
smoothly, As you know from our frequent visits to Congressional 
members and staff. There is a lot of good news in today's 
status report.
    Turning first to highway safety, the new core Highway 
Safety Improvement Program, administered by Federal Highways, 
significantly increases the national policy emphasis on safety 
and almost doubles the resources available to reduce traffic 
fatalities and injuries on all public roads. We also thank the 
Committee for including Secretary Mineta's proposed incentive 
grant program for State primary safety belt use laws, and are 
pleased to report that this NHTSA-administered program is 
working exceedingly well. Safety belt use cuts the risk of 
death in a severe crash by about half, and research has proven 
that the quickest and least expensive way to boost belt usage 
is for a State to enact a primary belt law.
    To achieve reductions in crashes involving commercial motor 
vehicles, the Federal Motor Carrier Safety Administration's 
medical program is designed to ensure that medically qualified 
drivers operate trucks and buses. As directed by SAFETEA:LU, 
the medical program addresses revision of the diabetic 
exemption standard, establishment of a Medical Review Board, 
and development of a National Registry of Medical Examiners.
    SAFETEA:LU also enhanced Federal Motor Carrier's consumer 
protection and enforcement authorities for shipment of 
household goods. The Federal Motor Carrier Safety 
Administration is pursing enforcement of Federal household 
goods regulations through civil actions, is broadening 
distribution of household goods consumer education materials 
and has implemented a number of provisions through enforcement 
policy memoranda to field staff and State partners.
    Along with improving transportation safety, reducing 
congestion is a major concern for the Department. Last month, 
Secretary Mineta launched the National Strategy to Reduce 
Congestion on America's Transportation Network. This initiative 
will maximize resources and authorities you provided in 
SAFETEA:LU to improve operation of our surface transportation 
system. It will increase the use of public transportation, 
encourage the development and deployment of new technologies 
and construction methods, and expand opportunities for private 
investment in transportation infrastructure.
    SAFETEA:LU provides an historic level of investment in 
public transportation, while establishing several new transit 
programs, such as the New Freedom and Small Starts, and 
modifying other transit programs, including New Starts. Well-
designed New Starts projects are critical pieces of the 
congestion solution, offering alternatives to gridlock in 
relieving pressures on our highways. The Federal Transit 
Administration is making solid progress in advancing the 
substantial number of rulemakings necessary for implementation.
    It is also engaged in broad-based outreach efforts, 
especially with respect to the Small Starts program. Later this 
year, the Federal Transit Administration will publish an NPRM 
covering both the New Starts and Small Starts programs, and is 
issuing guidance to ensure that the program can be effectively 
executed during the rulemaking process. This will allow 
grantees to assess their projects and submit them for possible 
Small Starts funding during fiscal year 2007.
    Effective transportation research programs also have a 
critical role in the future of surface transportation 
infrastructure construction and operation. The Research and 
Innovative Technology Administration, or RITA, is leading the 
Department's efforts to prepare the five-year Research and 
Development Strategic Plan required by SAFETEA:LU. RITA will 
continue to work to establish RD&T, performance measures in 
advanced cross-modal research coordination efforts.
    Mr. Chairman, although SAFETEA:LU increases funding for 
Surface Transportation Research, Development and Deployment, 
certain structural problems within research funding challenge 
the Department's ability to carry out the program Congress 
envisioned in Title V of SAFETEA:LU. I would welcome an 
opportunity to answer your questions about the structural 
issues and program impacts.
    To conclude, even as we implement SAFETEA:LU, we need to be 
thinking about the next reauthorization. Demands on the surface 
transportation system will continue to grow, and are expected 
to exceed the resources provided by current funding mechanisms. 
We want to work closely with Congress to find solutions to the 
imbalance.
    On May 24th, the Secretary convened the first meeting of 
the National Surface Transportation Policy and Revenue Study 
Commission, which, as Congress directed, will explore options 
for the future direction of our surface transportation system 
and how we invest in and manage that system. The Department 
will continue to support the work of the Commission and looks 
forward to its recommendations.
    Mr. Chairman and members, thank you for this opportunity to 
report on the Department's implementation of SAFETEA:LU. We are 
looking forward to continuing to work with you and will be 
pleased to answer any questions that you might have.
    And so I would ask permission to enter for the record a 
complete statement.
    Mr. Petri. Thank you.
    Your statement will be made a part of the record, and we 
will continue with Ms. Sandra Bushue, who is the Acting 
Administrator, Federal Transit Administration, U.S. Department 
of Transportation.
    Mr. Capka. Mr. Chairman, we have chosen for me to speak for 
the entire team.
    Mr. Petri. OK, then we will go immediately to questions. 
Let me begin with questions. There were two areas I wanted to 
explore briefly. First of all, you mentioned just a little bit 
the special panel that had its initial meeting about a week 
ago. I was hoping to be at some of that. There was a lunch that 
the Secretary scheduled and we couldn't be there. It wasn't his 
fault, or anyone's fault, it is the nature of these overlapping 
organizations.
    But they are wrestling with a number of issues, and 
particularly the sort of focus and funding of the Federal 
Surface Transportation programs going forward. And there are a 
lot of challenges in that regard. I wonder if you could expand 
a little bit on the meeting, with a number of distinguished 
people with considerable background and different perspectives 
who have agreed to serve on, well, there are two commissions, 
but they are working somewhat, I hope, dividing up their labors 
somewhat. If you could expand on that and talk about it a bit, 
we would appreciate hearing it.
    Mr. Capka. Mr. Chairman, thank you very much for your 
question. This is one of the top priorities that we have within 
the Department, and Secretary Mineta has made this a personal 
priority. He very much appreciated the fact that you were 
unable to join us for lunch. But we did have an outstanding 
first meeting for the Commission.
    You are absolutely correct, sir, it is the Section 1909 
commission that met on the 24th. And this is going to be a 
challenge for the members. There is a lot of ground to cover, 
and we have a requirement to report out to Congress next July, 
July of 2007.
    But we have, as you pointed out, assembled a very 
impressive group of commissioners, an excellent blend of 
backgrounds and talents from the private sector, public sector, 
academia, just a whole host of the right kinds of individuals 
who are going to address the issues that we have left before 
us.
    While there are many details that the commissioners are 
going to be working out regarding the pace and the mechanics of 
moving forward, it is clear that they have identified the issue 
of needs, of requirements, and then the resourcing of those 
requirements as very explicit deliverables, as they took an 
initial look at the task in front of them. The commission will 
be meeting regularly. Between physical meetings of the 
commission they will have conference calls to ensure that there 
is an efficient exchange of information and that the 
commissioners are kept up to speed on any of the developments 
that may be occurring.
    So Mr. Petri, we would certainly be interested in coming by 
and giving you a personal brief on the progress of the 
commission, and to any member who would be interested in 
following up as the commission meetings move forward.
    Mr. Petri. Thank you. We ought to probably, once they are 
at an appropriate state, have that meeting or series of 
meetings.
    In your opening statement, you alluded to I think Section V 
of the Act, and a number of structural and programmatic issues 
that might be, maybe we need to do something about or maybe we 
should know about. Would you care to expand on that part of 
your testimony?
    Mr. Capka. Yes, Mr. Chairman, I definitely would. As 
anybody would find in a very complex and successful 
accomplishment, there are always the unexpected glitches that 
seem to catch us after the fact. There were some of those 
glitches with respect to our research and technology program. 
There are some challenges that really put the effectiveness of 
our Federal research program at risk. And despite an aggregate 
increase of about $43 million, more than what we had under TEA-
21, the added initiatives, such as the $51 million SHRP II, the 
statutory over-designations of some of the projects, have 
eliminated basically the flexibility to conduct programs that 
have been important to the priorities of this Committee.
    The bottom line, when we compare 2005 to what we have 
today, is that we have about $30 million less in annual funding 
for the critical research activities. This will significantly 
impact the Department's Federal leadership position in the 
surface transportation research community. This leadership is 
vital for the development of the breakthrough technologies that 
will lead to construction efficiencies and engineering 
techniques that will improve safety and the long-term 
reliability and quality infrastructure in programs that we will 
be following to deliver the Nation's transportation needs.
    The Department's leadership will be key to the integration 
of technology into the efficient operation of our system to 
reverse the existing trends toward a more congested and less 
reliable surface transportation system. Just a couple of 
examples of some of the impacts are drastically reduced funding 
for important programs, such as the Transportation Research 
Board core program and the Transportation Research Board's 
research and technology coordinating committee that provides us 
advice on how we move our program forward. There is the 
inability to provide supporting data for the Conditions and 
Performance Report and the inability to update the Manual on 
Uniform Traffic Control Devices. And, there would be a 
requirement to discontinue the longstanding publications and 
other media through which we work our technology transfer.
    We really are struggling to assemble a program and fear 
that if we are forced to spread ourselves as thinly as it 
appears will be required, we will not be able to do the 
necessary things well. The effectiveness of the only national 
surface transportation research center in America, and a number 
of world class laboratories are, in fact, at risk. Mr. 
Chairman, I would very much look forward to working with you 
and the members of this Committee to help us address the 
challenges that we have identified.
    Mr. Petri. That is very important. I must say, I haven't 
read it cover to cover, but I certainly have read the executive 
summary of at least the most recent Conditions and Performance 
Report, or maybe the one before that, and had the opportunity 
to travel to about 18 cities and wave it as part of our effort. 
Because we used that report as the basis for the original 
legislation that was introduced in this Committee, to try to 
fund surface transportation projects that it indicated was 
needed to maintain our current level of effort, or at least 
come close to doing that by that conditions and performance 
report. It is an important tool as an overview of where we are. 
You don't know where you are going unless you know where you 
are, so you can improve that.
    Let's turn to Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. I have a few 
questions. To the FTA, and I think my colleague, Mr. 
Blumenauer, has specific questions about this, too. But I 
wanted to wave the issues about the New Starts rules, 
particularly what is expected, time line. I understand they 
were going to be out in June and they may be delayed. Second, 
what is the status of the actual, where we are, I am not 
exactly sure where we are in the rulemaking, and what does the 
current thinking reflect in terms of streamlining. The idea was 
that this is a new category of projects, and if we are going to 
make it the same as New Starts, then Small Starts is New Starts 
and we don't need to go through all of this. But the Congress 
obviously, in my opinion and I believe the opinion of others up 
here, was expressing the need to create a different sort of 
short form, smaller dollar amount, different projects. Could 
you address that?
    Ms. Bushue. Absolutely, Congressman DeFazio. The Small 
Starts programs are the programs that are less than $250 
million, and they can get up to $75 million in Federal help. We 
are very happy to say that we sent out an advance notice of 
proposed rulemaking back in January, and then we held a number 
of listening sessions. And it was just amazing, the amount of 
comments we received, not only on the New Starts program, but 
most importantly, on the Small Starts program. There was all 
kinds of excitement and enthusiasm out there in the community 
for this new program. I would like to thank this Committee for 
supporting it. It is a great concept and a great idea.
    Having said that, we just put our interim guidance for the 
New Starts program on May 22nd. And on Friday, the Federal 
Register will post interim guidance for the Small Starts 
program. Sticking with the Small Starts program, we hope to 
have a noticed for proposed rulemaking out by the end of this 
year and then the final rule out by hopefully August of 2007. 
But there is again, I would just like to say, a lot of 
enthusiasm.
    And getting back to Congressman Blumenauer, your issue 
regarding the land use, we did hear a lot of comments when we 
had our listening sessions and stakeholder hearings out in the 
Country, a lot of comments about the land use. The FTA has 
listened to those comments. I think you will be pretty pleased 
with the rating process when you see the interim guidance when 
they are posted on Friday.
    Mr. DeFazio. So under interim guidance, are we going to be 
making grants?
    Ms. Bushue. Absolutely. We hope with interim guidance, 
again, they are posted on Friday, by the time the grantees put 
together their proposals, submit it to the FTA for evaluation, 
we hope that we are going to be able to be issuing or making 
selections by July of next year.
    Mr. DeFazio. OK. To the National Highway Transportation 
Safety Administration, there is a provision in SAFETEA:LU, I am 
not certain whether or not you are familiar with it, but there 
was $1 million to conduct a study on the risks associated with 
glare to oncoming drivers. In particular, this concern is 
raised by my own personal experience and also by some research 
done by the Consumers Union, and that is these new high-
intensity, bluish lights in the spectrum, and the intensity at 
which they are transmitting and the potential for causing glare 
disturbance to oncoming drivers, particularly on two-lane 
highways, which are more common in my part of the Country than 
around here.
    And my understanding is that there are ways to mitigate 
that, but that we are using a very kind of anachronistic--the 
measure that is being used is very crude in terms of lumens 
versus spectrum and disturbance. That is why we put the money 
in the bill to do some research. Can you give me a status on 
where we are on that?
    Ms. Glassman. Yes, sir. In 2001, we actually put out a 
notice for comment on glare, as we did start to see more of 
these lights on the road. We received a huge number, about 
10,000 comments altogether.
    The issue, though, we have from a safety perspective, is 
actually finding a safety problem associated with this from a 
regulatory point of view. We have conducted a number of 
studies, or surveys of people, who tell us that while they find 
glare to be annoying, they do not experience it as distracting. 
So we are watching the safety problem very closely, and 
watching also our data very closely, to make sure we get ahead 
of this problem if it becomes in fact a safety problem on the 
roads.
    We are conducting a study with Rensselaer Institute 
currently. We have a report to Congress due in 2007, and we are 
on track to supply that report. It will be a comprehensive 
review of the risks associated with glare, as well as potential 
countermeasures and any unintended consequences that could 
arise if we go down, countermeasures that in fact then cause 
another problem that we didn't anticipate.
    Mr. DeFazio. OK. I think given the complaints, I think one 
can intuit that although perhaps there are no survivors of 
head-on crashes who attribute it to the glare, one can intuit 
that if that many people saw fit to comment on a fairly obscure 
Federal investigation that there is a real and growing concern 
out there among the public. I think, particularly with an aging 
population, the glare problems are very, very important, and we 
need to get on them.
    Then finally, to Mr. Capka, you heard my concerns and 
comments earlier regarding Buy America, the difference between 
an often reinforced statutory guidance and hortatory language 
that was in the bill. I would like to know what your current 
interpretation is and where we are on Buy America, particularly 
when most major recent concern relates to a bridge project and 
the idea that specifications call for very long beams that 
people know can't be made in the United States.
    But the bridge doesn't have to be built with very long 
beams that can't be made in the United States. It is a way to 
drive the procurement offshore, whereas you could have a design 
which would incorporate beams that could be made in the United 
States, which would fully comply with Buy America, and there's 
a real interesting interplay here between some amount of State 
funding and Federal funding and the Federal law which of course 
preempts State law.
    So could you give me your short version response to that?
    Mr. Capka. Thank you, Congressman DeFazio. You are 
absolutely correct. This particular issue has been addressed 
within the Department and we have had discussions with members 
of this Committee over the issue.
    Let me first of all say that the Federal Highway 
Administration takes very seriously the requirement to enforce 
the law of Buy America. And of course, the basis for applying 
that law to any project is a determination of whether or not 
that project is a Federalized project, whether there have been 
Federal monies expended on the project. And we have been very, 
very consistent since 1982 or 1983, when the Buy America Act 
came into effect, in consistently applying the rules.
    The Buy America determination on a project and the 
determination on Federalization of a project is basically done 
at the contract level. California has the discretion as to 
whether or not they want to build a project using Federal 
resources. If they don't use Federal resources, we have no 
Federal interest and have no ability to enforce the Buy America 
program. In this particular case, California chose not to use 
Federal resources and, therefore, the Buy America Act did not 
apply on this particular project.
    Mr. DeFazio. Can we demonstrate, and have you had auditors 
go in and look? I mean, money becomes pretty fungible. The 
State of California gets a pretty generous dose under the 
formula of Federal money. They have a high gas tax. They raise 
money there. How can we determine that there is no miscibility 
between the State funds and Federal funds, no displacement? Or 
can they show a dedicated revenue stream for the bridge? Is the 
bridge being totally built with bonding which has a dedicated 
revenue stream that comes from tolls, or are they using some 
formula money or gas tax money or mixed monies as part of the 
support for this project?
    Mr. Capka. Sir, I can't speak to the specifics of the type 
and sources of money. But there is a mix. But we are very 
careful to ensure that that mix of funds does not include 
Federal funds. And as I had mentioned, we are very careful to 
ensure that we are enforcing the law consistently and 
appropriately.
    Mr. DeFazio. I guess my time has expired, but just again, 
in reflecting on that, let's say for simple purposes the State 
raises $50 with their gas tax and they get $100 from the 
Federal Government, and they have a project that costs $60, OK, 
it is pretty clear some of the money came from the Feds. If 
they have a project that costs $40, they might argue that they 
only used State money. But what other State interest projects 
did the Federal money flow to that would have been funded out 
of, I mean, there is an interesting kind of mix and/or problem 
here. I just want to be sure that we are being as rigorous as 
possible. It is a grand mistake to offshore more things, 
contribute more to our trade deficit, displace more American 
workers and manufacturing, particularly when it comes to 
Federal tax dollars. We are going to be very, very vigorous in 
watching that. So thank you.
    Mr. Capka. Yes, sir.
    Mr. Petri. Mr. LoBiondo?
    Mr. LoBiondo. No questions at this time, Mr. Chairman.
    Mr. Petri. Mr. Brown?
    Mr. Brown. Thank you, Mr. Chairman. We are glad to have the 
whole team here today. I will just ask my question to you, Mr. 
Capka, and anybody can respond that you feel led to.
    I want to first congratulate you on your 50th anniversary 
last week of the Interstate system. I did not bring my pen, Ms. 
Mayberry gave me one in Columbia last Tuesday. But we were 
there to celebrate at the final line for I-73, as it comes, at 
least from I-95 into Myrtle Beach. So we were there to do both 
of those celebrations.
    And I was just, with that in mind, do you foresee that we 
are going to be expanding the Interstate system? Is there a new 
plan to sort of look at where we are in the Interstate system 
and try to develop an extension of the interstate system to 
include those areas of growth that were not included in the 50 
year plan that was established by President Eisenhower?
    Mr. Capka. Sir, that is a very good question. And we in the 
Department are very concerned about a review of the existing 
Interstate system. It is 50 years old, as you pointed out. And 
50 years for a lot of infrastructure is the design life. So we 
do have concerns, particularly in the area of capacity 
congestion, if you will. And as I had mentioned in my opening 
remarks, Secretary Mineta has launched a congestion initiative 
that will look across all modes, across all sectors, to 
determine the best way to address congestion systematically. 
Quite honestly, it will require us to take a look at the 
Interstate, take a look at corridors. And take a look at 
technology on how we use the existing capacity that we have 
today and then make decisions on what capacity needs to be 
adjusted in the future, whether that capacity is on the highway 
Interstate system, whether that capacity is on rail or other 
modes of transportation.
    The commission that we discussed earlier is also reviewing 
that particular issue as they look forward to the future of 
surface transportation.
    Mr. Brown. Well, I know you know the demographics as well 
as I do, and I know there has been a shift to the south and the 
southeast. I just felt like, I hope the study will encompass 
that new growth in the population, and the needs for additional 
highways, so that we can start another initiative to address 
the new areas of congestion. I hope that study will reveal 
that.
    My next question, Mr. Chairman, if I may, the trust fund 
that was established, I guess, to fund TEA-LU, is the revenues 
coming in at a pace to keep us solvent?
    Mr. Capka. Sir, another excellent question. The issue of 
solvency of the Highway Trust Fund has been raised before. We 
are confident today as we look at where we are that the Trust 
Fund will take us through the duration of SAFETEA:LU.
    As you recall, when we were structuring the Trust Fund, we 
knew that we were going to take it down to zero. That was the 
intent. And if you take a look at the Treasury forecast, we are 
a little below zero. If you take a look at the Congressional 
Budget Office forecast, we are a little above zero. So I think 
at this particular point in time, there are no signals that are 
telling us that we are in jeopardy at this point.
    However, we very much look forward to working with the 
Committee as we get a little closer and the future becomes a 
little clearer and the forecasts become a little clearer, if we 
do have a challenge facing us. But today, as we are sitting 
here today, we feel confident that it will get us through the 
SAFETEA:LU period.
    Mr. Brown. Thank you. Thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    Mr. Blumenauer?
    Mr. Blumenauer. Thank you. I would like to follow up on a 
comment I made in the opening here. I have been concerned that 
the emphasis on the transportation system user benefit, TSUB, 
process, that is just savings in time travel, is going to be 
used as a measure of cost effectiveness. The whole thrust of 
much of the Small Starts and the enthusiasm for dozens of 
communities around the Country for the street car is the 
economic development potential and preventing the trips in the 
first place. Rather than forcing people to travel long 
distances from the suburbs, we have examples where street cars 
inspire redevelopment along the right-of-way, so that you are 
moving people, but they don't have to have large time travel 
savings, because they are not out scattered around the 
countryside in the first place.
    Now, help me understand what efforts with the criteria that 
you are working on that will get us away from narrow-minded 
application of TSUB, which completely misses the point of the 
program, and why these people are enthusiastic?
    Ms. Bushue. Certainly, Congressman. As I mentioned earlier, 
the Small Starts interim guidance will be posted on Friday. I 
think the industry will be really happy about how we are 
looking at the land use and economic development. We certainly 
heard a lot from the industry and from our grantees about the 
TSUB issue. So I think we have addressed them in the guidance 
that you will note on Friday. But most importantly, the 
guidance is not the end. We realize how important the Small 
Starts program is. We are holding a workshop next week with 
ACTA at the commuter rail conference. We will also be holding 
another listening session in Chicago at the end of the month. 
There is still a lot of time for comment, we still have a lot 
of room for improvement, if in fact the guidance that we put 
out Friday is still problematic to some of the grantees and 
industry.
    I think they will be surprised. We have listened to that 
and we certainly do understand the issue of the TSUB concept 
and the need to have you get those modern benefits in a cost 
effective way. Sometimes it is a little difficult. But we are 
working very hard with the grantees and industry to remedy 
that.
    Mr. Blumenauer. Super. We will look forward Friday to the 
unveiling.
    Ms. Bushue. Remember, that is not the end-all. We are still 
open for comments and ways to improve if they are not happy 
with it.
    Mr. Blumenauer. I appreciate it is not the end-all and be-
all. But time is of the essence.
    Ms. Bushue. Absolutely.
    Mr. Blumenauer. We had the delay in the program, 
unfortunately, with the 12 extensions. And the whole thrust 
behind this was to make it simple and common sense, because 
they are smaller scale, not as expensive, we don't need as much 
Federal intrusion.
    Ms. Bushue. Absolutely.
    Mr. Blumenauer. And the Committee language was very clear 
about these multiple benefits. So I am hopeful that we are able 
to quickly come to a resolution, so people in these 80 
communities can get on with business.
    I mentioned earlier the concern about the planning, the 
inconsistency in terms of the planning time frame, that we are, 
the conflict between the metropolitan transportation's ongoing 
planning process, being able to go through the existing cycle, 
or having to rush ahead and accelerate it and getting caught in 
the middle. Can you help me understand, are they imagining 
this? Did we miss something here?
    Mr. Capka. Well, sir, I don't know the specifics, but let 
me describe the intent as we move through implementation. We 
understand that sometimes when we implement new laws and new 
rulemakings and those sorts of things, we will change the 
rules. But it is our intent to provide a smooth transition. We 
don't want to turn a program up on its head or force an MPO to 
have to go back to the beginning when the sole reason for the 
confusion or the sole reason for the restart is the new law or 
the new rule that is going into effect.
    So I would very much like to learn about the specific 
problems for the MPO that you have described, the conundrum 
that you had mentioned earlier, and see what we can do to 
ensure that implementation does not have that kind of adverse 
effect.
    Mr. Blumenauer. I will submit to you their concern, because 
I think it was clear that we didn't want the metropolitan areas 
to have to disrupt the established planning process. But an 
inability to amend the metropolitan transportation improvement 
program, unless it first amends the regional transportation 
plan a year earlier, seems to me to be violating that concept. 
But we will get the details to you, and would appreciate 
guidance about how we unravel this.
    Mr. Capka. Sir, I would be happy to take that from you.
    Mr. Blumenauer. Thank you. Thank you, Mr. Chairman.
    Mr. Petri. Mr. Shuster.
    Mr. Shuster. Thank you, Mr. Chairman, and thank all of you 
for being here today.
    My first question deals with the Federal Motor Carrier 
Safety Administration, the results of the multi-year truck 
crash causation study that was just transmitted to Congress. Of 
course, the reason is finding out why trucks crash and can we 
put new policies in place or improve the policies for truck 
safety. I wondered what you have found for primary causes of 
truck crashes. Have you started to study the existing policies 
and programs and how best to utilize the findings of the study 
to improve truck safety?
    Mr. Hill. Thank you, Congressman Shuster, for that 
question. That was a long study. It started back in 2000, and 
we have been working on it for several years with a variety of 
people, including the National Highway Traffic Safety 
Administration. This study was the largest of its kind. It went 
out and physically sent investigators to the scene of a crash. 
They spent considerable hours investigating all parties 
involved with it, analyzed the data. The purpose of the study 
was to give us large amounts of data, so that we could use it, 
not only in the macro sense, but that we could provide it in a 
public setting, so that other people who are skilled at 
analyzing data could have this made available to them.
    The overwhelming initial response that we heard from that 
study is that the driver is the predominant focus of our future 
efforts. Therefore, we are taking our regulatory agenda and our 
enforcement program, we are filtering it through that lens of 
driver focus, and we are going to be making changes in our 
program activities in the next few years, through a variety of 
initiatives. We believe that this data will help us in that 
process.
    Mr. Shuster. My understanding is that about 90 percent of 
the accidents are caused by driver action or inaction or error?
    Mr. Hill. If I may follow up there, it was not that high. I 
would be glad to submit to you for the record some of the 
specific percentages. I didn't bring those with me today. But 
it was not that high. It was lower. But it was predominantly 
with a passenger vehicle.
    And I would just say to you that one of the provisions in 
SAFETEA:LU that you folks provided us had to do with granting 
us authority to spend grant dollars in our motor carrier safety 
programs for passenger vehicles in and around a commercial 
vehicle. That was groundbreaking. We are just now starting that 
with the States. We believe it is going to yield results. We 
think it will get more people involved in enforcing motor 
carrier laws in our Country, and so we are excited about that 
potential.
    Mr. Shuster. That brings me to my next question on the CDL 
program, which has been around for about 20 years. It is my 
understanding that there were only a handful of States that 
were in compliance, or substantial compliance, with the CDL 
program. Is that accurate, and can you give me a number on how 
many States were or were not in substantial compliance?
    Mr. Hill. Thank you, Congressman Shuster, again, that is a 
very interesting point. As you know, in the Motor Carrier 
Safety Improvement Act in 1999, you gave us several things that 
you wanted us to do to improve the commercial driver's license 
process. About 15 provisions were given to the States in order 
for them to adopt them. Our normal process is to give the 
States three years to go through that process of adoption, 
changing their laws to conform and so forth, including their IT 
systems.
    As of right now, the States are making great progress. We 
have only had to declare one State in substantial non-
compliance up until this year, and then just recently, after we 
went through a series of reviews, we had to do that with three 
or four other States, who found in their implementation that 
they didn't have the laws to implement it the way that they 
were supposed to.
    So to answer your question, we have two phases. There are 
people who are making legislative changes, and then there are 
those who are doing their information system changes. And 
generally, the States are in compliance with the statutory 
provisions.
    Mr. Shuster. Well, if we passed it in 1999, when did the 
clock start ticking on the three years?
    Mr. Hill. When we started with the regulations, which were 
promulgated in 2002, September, I believe, 2002. So it was 
September of 2005 when they were supposed to be in compliance.
    Mr. Shuster. OK, thank you for that answer.
    Mr. Hill. You are welcome.
    Mr. Shuster. Another question I have, I guess it would be 
directed to Transit or Highway Administration, or both. The 
Governor of Pennsylvania has decided that he is going to flex 
about $400 million of Pennsylvania's annual allocation out of 
the Highway Trust Fund. The first question is, it is my 
understanding that you can only flex that money for capital 
investment, you can't do it for operations. Is that accurate? 
That is correct?
    Ms. Bushue. That is correct.
    Mr. Shuster. Second question is, has any State flexed that 
sizeable amount of one year's allocation from highways to 
transit systems? On a percentage basis.
    Ms. Bushue. According to our advisors back here, they are 
saying that New York and California have. I am not sure, do we 
know that percentage? We can get back to you with that, 
Congressman Shuster.
    Mr. Shuster. Is that dollar amount or is that percentage? I 
guess the only way we can do a fair comparison is by percentage 
of what they get. If you could get me that, I would appreciate 
it.
    Ms. Bushue. We certainly will.
    Mr. Shuster. And the third question is, from what I 
understand and what I see, Pennsylvania is going to flex that 
money. And it is not going to solve the problem for the transit 
system in Philadelphia or Pittsburgh. It is basically a band-
aid. Do you have any oversight at the Federal Highway 
Administration or Transit that can say, if you are going to 
flex that kind of money, you really ought to be coming to a 
fix, a long term fix for it, not just an infusion of cash that 
is probably going to happen this year and then next year and 
then down the road?
    Mr. Capka. Congressman Shuster, I can say that our Division 
Administrator and his office are working very carefully with 
the Pennsylvania DOT to ensure that this particular situation 
is being managed appropriately. And there is a planning process 
that they are going through right now that requires our review.
    Mr. Shuster. ``Managed appropriately'' is pretty vague. 
According to whose managing and appropriate. If you saw that 
this was just a band-aid and a limited term fix to a situation 
instead of a long term situation, because it comes down to what 
is fungible, and they are going to put it into capital, but 
they are going to just shift their money around, and it is the 
operation that is really significant, has significant problems. 
So would you have that ability to say stop, we don't believe 
what you are doing is in the long-term best interests of using 
Federal dollars?
    Mr. Capka. Not knowing the complete specifics of the 
situation there, what we would look at is the sustainability of 
the program, the initiative, from a fiscal perspective, and 
ensure that the program is fiscally constrained. I think that 
the context around that would help us decide what action we 
would or would not want to take.
    Mr. Shuster. Could you or whoever is dealing with that 
situation contact our office and keep us posted? Because it is 
a huge concern to me, coming from rural Pennsylvania, and I 
think many, many Pennsylvanians. Because of that $400 million, 
about $380 million is going to go to Philadelphia, which I 
guess happens when the Governor of Pennsylvania is the former 
mayor of Philadelphia. But anyway, that is our problem in 
Pennsylvania.
    Thank you very much, and again, if you could keep us posted 
on that, we certainly are very concerned.
    Mr. Capka. Sir, we will follow up with you on that.
    Mr. Shuster. Thank you very much.
    Mr. Petri. Thank you. Ms. Berkley?
    Ms. Berkley. Thank you very much, Mr. Chairman.
    I have three questions that are all Las Vegas valley 
specific, as you can well imagine. The first is, I had a 
conversation with my local transportation officials, and they 
have expressed concern that existing planning cycles may be 
disrupted by regulations that the FHWA and FTA have issued or 
will issue to implement SAFETEA:LU. Can you give me assurances 
that you won't be changing the rules for our local government 
officials in the middle of the game, in the middle of their 
planning process? That is my first question.
    Mr. Capka. Yes, ma'am. I think I would respond the same way 
I did to Mr. Blumenauer, with his question.
    Ms. Berkley. If we are having a specific problem with the 
project that you know?
    Mr. Capka. Absolutely. Again, I think the philosophical 
approach is not to interrupt something abruptly with a change, 
but to provide a good transition that allows everybody to catch 
up, and not to create the conundrum that was described earlier. 
But I will offer the same to you and your community to take a 
look at what the issue is and to work with you on that.
    Ms. Berkley. I appreciate that. My second question is, a 
provision in SAFETEA:LU gives priority to diesel retrofit 
projects in CMAQ. My local transportation officials have 
planned to use these funds for eligible projects, including our 
intelligent transportation system, in purchase of hybrid buses. 
How is this provision being implemented to ensure that worthy 
projects other than diesel retrofits will continue to be 
funded?
    Mr. Capka. We are working the final guidance with EPA on 
this one. This is one that we are working jointly with the 
Environmental Protection Agency. And again, if there are 
specific issues that are coming up, I would be more than happy 
to work with you on that.
    Ms. Berkley. I think the two that we are most concerned 
about is our intelligent transportation system and the hybrid 
buses, because we are getting, the money is coming out of the 
diesel retrofit projects. Right now, those are eligible 
projects, but we wouldn't want them to be come ineligible all 
of a sudden.
    Mr. Capka. I will follow up with you on that and just make 
sure that we are both looking at the same facts and provide 
some help and guidance there.
    Ms. Berkley. OK, and then of course the third is, and I 
know a number of my colleagues have mentioned the Small Starts 
program that was created in SAFETEA:LU for fixed guideway 
projects costing under $250 million. It is my understanding 
that this will be eliminated in the 2007 transportation 
appropriations bill approved in committee yesterday. If that is 
the case, and I would appreciate some clarification on that, 
but if that is the case, what would the effect of that 
elimination have on these projects? And the one that comes to 
mind is the MAX bus project in southern Nevada. Right now it is 
eligible for Small Starts funding. If it is eliminated in 2007, 
what do we do?
    Ms. Bushue. Well, I certainly hope it wasn't eliminated. I 
think what they did, we have not seen that language, I think 
you are talking about the full Committee House Appropriations 
markup. We have yet to see the language. We understand they put 
a freeze, we are not really sure what that means. Again, the 
language has not been released, and FTA has not had the 
opportunity to evaluate it.
    But I do know that the Appropriations Committee has been 
very supportive of the Small Starts program. So I guess we will 
have to wait and see. But I don't think it was an elimination, 
it was a freeze. And again, we don't know exactly what they 
meant by that.
    Ms. Berkley. Can you let me know?
    Ms. Bushue. Absolutely.
    Ms. Berkley. Because again, this MAX bus project is very 
important to us. And if the money is no longer there, what 
happens to the project?
    Ms. Bushue. Absolutely, Congresswoman Berkley. We will 
certainly get back to you.
    Ms. Berkley. Thanks a lot.
    Mr. Petri. Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman.
    Mr. Chairman, I apologize for my belated arrival. We had a 
Judiciary markup, and that is why I could not be here earlier.
    Mr. Hill, let me put a question to you on an issue on which 
I have done some considerable work and am very interested. I am 
concerned that the advance notice of proposed rulemaking on 
insulin-treated diabetes possibly creates broad restrictions on 
the kind of driving that properly screened individuals with 
insulin-treated diabetes can do, such as being restricted to 
only certain types of driving, like local or short haul routes. 
What sort of restriction does the Federal Motor Carrier Safety 
Administration have in mind and what is the basis for 
restricting the type of driving an insulin-treated commercial 
driver can do?
    Mr. Hill. Thank you, Congressman Coble, for that question. 
I do know that you and Representative DeFazio have been heavily 
involved in this issue, and I am aware of the recent 
correspondence that you have sent to our office concerning this 
matter, and I would like to address your concerns. First of 
all, let me just say in a general sense, our standards for 
commercial vehicle drivers, we are trying to weigh the balance 
of making sure that we implement the provisions in SAFETEA:LU, 
which we have done, by the way, and I will explain that more 
fully, and then making sure that we have been deliberative in 
our consideration of the safety concerns for the general public 
in allowing people with some kind of impairment, potentially, 
to be drivers.
    To answer your specific question, as you know, in 
SAFETEA:LU, you passed legislation that said we are no longer 
permitted to require three years driving experience in terms of 
having that experience before we create an exemption to the 
rule that is now in place, that says insulin-dependent drivers 
cannot operate a commercial vehicle. We have implemented that, 
in November of 2005 we published a notice that said we would 
discontinue that practice. We are in the process now of 
reviewing applications. Thirteen drivers are presently on the 
road. When they get an exemption to operate in interstate 
commerce, there are no restrictions placed on them. They are 
permitted to drive just like another driver would drive.
    We have 40 other drivers that were posted in the Federal 
Register just today for public notice and comment. Another 30 
are in process, and we have 400 applications that we are 
currently reviewing that would allow for them to eventually be 
granted an exemption under our current rule.
    Mr. Coble. Thank you for that response. I am, Mr. Hill, in 
no way attempting to compromise safety. But by the same token, 
I want to be sure that insulin-treated commercial drivers are 
not beneficiaries or victims of inordinate restrictions, if I 
am coming through to you.
    Mr. Hill. Congressman Coble, I appreciate your concern for 
safety, because we share that, as our agency has to deal with 
that on several levels. One of the further considerations that 
I would just say to you is that we are going to be starting a 
medical review board, and they are going to be convening in 
August of this year. That medical review board will be looking, 
as one of its first projects, at the whole issue of diabetic 
drivers. This rule that we have had in place for banning 
insulin-dependent drivers for driving in interstate commerce 
has been with us for several years. One of the goals of the 
medical review board is to make sure that our current medical 
regulations are consistent with current science and data, so 
that we can make accurate assessments. Because things have 
changed in those years, and we want to be sure that we are 
treating drivers and the public with due measure of safety and 
also accommodation that needs to be made.
    Mr. Coble. And if you can keep us current on that matter, I 
would be appreciative to you.
    Mr. Hill. You are welcome, sir, and we will.
    Mr. Coble. It is good to have all of you with us. Mr. 
Chairman, I yield back.
    Mr. Petri. Thank you, Mr. Coble.
    Mr. Matheson.
    Mr. Matheson. Thank you, Mr. Chairman.
    First question I wanted to ask was, if I have local 
communities and they are looking at projects that have been 
authorized in SAFETEA:LU, how can they receive assistance in 
planning for if there is going to be a difference between 
authorized and obligation amount? What would you suggest I can 
do to help in their planning process as they look forward?
    Mr. Capka. Sir, that is a very good question, and it is one 
that is asked regularly. Our division offices are well equipped 
to handle those questions locally. But even here in Washington, 
we would be more than happy to help. It is a matter of the 
difference between contract authority and obligation 
limitation. And it is about an 85, 86, 87 percent of the 
contract authority will actually appear as something the 
communities can program and work.
    In addition, we have had the 1 percent rescission. There 
are a few others that kind of eat away at the amount of money 
that appears in the bill itself. But I think explaining that 
and laying it out is something we can do and should be able to 
do, and sir, if you have some specifics, I would be more than 
happy to handle that for you.
    Mr. Matheson. And is it your sense that there is going to 
be reasonable stability or certainty of how that is going to 
play out after the next two, three, four years?
    Mr. Capka. It varies a little bit from year to year. But I 
think we can provide enough stability that would allow for the 
planning to occur that needs to occur.
    Mr. Matheson. Next question I want to ask about was, in 
SAFETEA:LU there were a number of provisions included to try to 
streamline process, to allow projects to move forward in a more 
timely manner. I want to ask a general question about your 
thoughts about how that has played out so far, and if there are 
unanticipated impacts, either good or bad, that have come from 
that effort.
    Mr. Capka. I think the SAFETEA:LU provisions are working 
pretty well. In fact, there are a number who have already taken 
advantage of the 180 day statute of limitations within the NEPA 
process on when suits can be filed and those sorts of things. 
We have already had a number of folks take advantage of that. 
We have also had a number of folks taking advantage of being 
able to assume the categorical exclusion responsibilities.
    We have another pilot program that you are very well aware 
of. We have five States who will look at assuming the entire 
environmental review program from us. Of course, they need to 
have the right laws in place, which they are working on right 
now. And we will work with those States. So I think SAFETEA:LU, 
even at this very early stage, is showing some very positive 
signs with respect to the efficiencies there.
    Mr. Matheson. That is good to hear. One more issue I want 
to raise is, when a project is listed or designated as a high 
priority project, can you give me a description of what the 
real impacts are of that and how that positions that project 
for safety improvements?
    Mr. Capka. Sir, there is a category of high priority 
projects, of course----
    Mr. Matheson. I meant high priority corridor.
    Mr. Capka. High priority corridors. Yes, sir, there is 
provision for the high priority corridors. A number of the 
projects have been designated already. So there is a 
requirement that we would need to walk ourselves through to get 
those projects up and running. But the discretion, to a large 
extent, isn't there for us to move from one location to 
another, because they have been designated.
    Mr. Matheson. Once it has been designated, is there some 
action or set of actions that the State Department of 
Transportation has to take with you in this regard, or is this 
more at your end?
    Mr. Capka. There are requirements for our division office 
to be involved. I would very much encourage the discussions to 
occur just as soon, as early as possible, so that we can lay 
out the course in front of us.
    Mr. Matheson. I appreciate that. Thank you, Mr. Chairman. I 
yield back the balance of my time.
    Mr. Petri. Thank you.
    Mr. Moran?
    Mr. Moran. Mr. Chairman, thank you. I think this is a 
question for Mr. Hill. I was just wanting to know the status of 
hours of service in regard to some exemptions that were created 
as well as just the general status of the litigation and how we 
are proceeding and what kind of results are, what survey or 
test results we would have on truck safety.
    Mr. Hill. Thank you, Congressman Moran, for that question. 
Hours of service has been living a lot of our lives here in the 
last few years. We acknowledge that the Congress did pass 
several provisions in this last SAFETEA:LU that we wanted to 
get right on in making sure that people understood those 
exemptions. So we put out policy memoranda that gave guidance 
to enforcement officers, so that they would know how to go 
ahead and enforce those provisions, even though we don't have 
the regulation fully implemented yet, because it takes some 
time for us to implement a regulation once you pass the law. We 
believe those were self-executing, so we believe the policy 
memoranda are effective for enforcing those. But we do plan to 
have an omnibus bill next year that will allow for that to be 
included as a regulatory follow-up to those policy memoranda.
    As far as the hours of service lawsuit, I can't really get 
into details, but it is progressing. They are expecting to 
exchange briefs this summer, and we anticipate some kind of a 
hearing before the court later this summer or early fall.
    Mr. Moran. What were the exemptions created in SAFETEA:LU 
in regard to hours of service? Was it two or three or more?
    Mr. Hill. There were more than that.
    Mr. Moran. And my question is, you have issued policy 
statements. Are they being treated the same as if the 
regulation was in place, is that what you are telling me?
    Mr. Hill. Yes, Congressman. We had our attorneys look at 
this, and we were, because of our regulatory workload, we are 
trying to expedite things and make sure that the will of the 
Congress is being enforced now. Our attorneys believe that 
those laws, as written by Congress, are enforceable. But we 
wanted to give the appropriate guidance, and yes, to answer 
your question, we believe that the roadside officers are 
treating them as they would in terms of the law.
    There are some nuances to some States having differing laws 
that they may need to adopt. But we believe that the policy 
guidance has the effect of enforcement.
    Mr. Moran. And I am sorry, I was confused in part of your 
response about a piece of legislation next year? Is that what 
you were suggesting? Or something omnibus within the 
Department?
    Mr. Hill. That would be an omnibus without our own 
department. It is an omnibus rule that would allow us to take 
several of these provisions that we believe are self-executing 
and put them into a single bill to move them on quickly, and it 
will cover all of these.
    Mr. Moran. I still am curious if it is a reasonably short 
list, or if you have it in front of you, I am curious as to 
what additional exemptions are created in SAFETEA:LU.
    Mr. Hill. I am not prepared to go into a lot of detail, but 
I will tell you that we have them in agricultural commodities, 
groundwater well drilling, utility service workers, grapes, for 
grape haulers west of Interstate 81 in New York, propane 
deliveries and 100 air-mile radius for movie producers.
    Mr. Moran. I am familiar with all of them except the grape 
producers. Thank you very much, Mr. Hill, and I yield back the 
balance of my time, Mr. Chairman.
    Mr. Petri. Thank you.
    Mr. Baird?
    Mr. Baird. Thank you, Mr. Chairman, and I thank our panel. 
My understanding is, my good friend from Oregon, Mr. DeFazio, 
asked a question about Buy America. I have great concerns about 
this issue. And I would ask, first of all, if members of the 
panel believe it is important for the United States to maintain 
fundamental domestic industries like steel fabrication and 
steel manufacturing. I will just go down, beginning with Ms. 
Glassman, do you think that is important?
    Ms. Glassman. I will hand that to Mr. Capka.
    Mr. Capka. Sir, the answer to your specific question, "Is 
it important to maintain the industries?" is, "absolutely".
    Mr. Baird. My question arises because it has been the 
recent policy of your department to find ways to allow 
communities to circumvent the Buy America Act. I refer to the 
Bay Bridge project, but there are others.
    I have a second, related question. We had a hearing in this 
very panel a week or so ago about increasing public-private 
partnerships, where private entities are being contracted to 
manage highways. This seems to be a trend of the future, and I 
understand that with limited capital, there may be some reason 
to argue for that.
    Have you given any thought to what implications that has, 
vis-a-vis Buy America? In other words, let's suppose somebody 
has contracted to manage a section of highway. Do they have to 
comply with the Buy America Act as part of that agreement?
    Mr. Capka. Sir, our implementation, our oversight of the 
Buy America Act has been very consistent over the last 25 
years, since the Buy America Act has been in effect. We take 
very seriously our requirement to ensure the law is 
appropriately applied and enforced.
    The Buy America Act applies when there is a Federal 
interest in a particular project and when there are Federal 
dollars being spent, when there is a Federal loan, such as 
TIFIA, that is being applied against a specific project, then 
Buy America and the other appropriate laws that are attached to 
the Federal interest also apply. And we ensure that they are 
enforced.
    Mr. Baird. I guess the devil is in the details in terms of 
how you define a project. if you define a project in a narrow 
enough way, you can say that particular portion of the project 
doesn't have Federal funds associated with it, therefore it is 
exempt.
    Mr. Capka. That is correct, sir. And our application of the 
definition of project has remained consistent over the last 25 
years. So we haven't varied from that.
    Mr. Baird. I would actually dispute that. But what about 
these public-private partnerships?
    Mr. Capka. Well, the public-private partnerships, I would 
have to know a little bit more of the details. Of course, it is 
an evolving area that we are all learning from as we go 
forward. And I am sure that we will continue to learn. But if 
there is no Federal interest in what this public-private 
partnership is doing, then there would be no attachment to 
the----
    Mr. Baird. Well, let's suppose, for example, that an entity 
wants to build a bridge somewhere, and they contract with a 
private capital firm to construct the bridge and to manage the 
bridge. The bridge is integral to the Federal highway system. 
It would be meaningless without the roads on the one side and 
the roads on the other side, which are federally funded. But 
the bridge, per se, is to be funded with private dollars and 
managed by a private entity. Is that subject to Buy America?
    Mr. Capka. Sir, I haven't had that personal experience to 
review that kind of a situation. But I would tell you that I 
would sit down with my legal staff and my----
    Mr. Baird. I can tell you what they would tell you.
    Mr. Capka.--to help me negotiate my way through those 
issues. Because it is important to make the call correct.
    Mr. Baird. They will find a way around it. And here is the 
problem. We are rapidly losing steel fabrication capacity in 
this Country. It is a fundamental infrastructure for safety, 
for travel, transportation, et cetera. If we lose this and one 
day on the west coast, where I reside, an even larger 
earthquake happens, and our steel bridges, strong though they 
are, fail, we will be dependent on foreign countries to rebuild 
our own domestic infrastructure. That, I believe, is being 
contributed to by this Administration and by your policies. I 
think it is a huge mistake. And for the record, I want today to 
put that on the record, so that when that happens and we need 
to go to the steel fabricators, somebody says, you know, they 
closed about 10 years ago, because we had some major projects 
that went to China or went to Korea or went to Japan, because 
in the short term, somebody wanted to save a little bit of 
money. And in the long term, they put Americans out of work, 
damaged American infrastructure, and we lost a critical 
fabrication industry, which we can't rebuild. Once those 
companies go down and the work force leaves, and the land turns 
into condominiums, we will never rebuild it. And we will be 
totally dependent to rebuild our infrastructure on a foreign 
country. And that is a heck of a bad mistake. And I think this 
Administration and your department are contributing to it.
    I yield back.
    Mr. Petri. Thank you.
    Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Ms. Bushue, I can ask you this question, I think we have 
made some progress, and perhaps you can bring us up to date. 
The proposed Trans-Hudson Tunnel, a lot has been written about 
it, a lot has many times been discussed. That is an extremely 
critical project, tunnel project for the New Jersey-New York 
region, as we are currently at capacity, beyond, with a 100 
year old tunnel which is providing 150,000 trips into and out 
of Penn Station, which you know those tunnels are all falling 
down. Serious problem.
    We await approval, and I know there was a meeting with Mr. 
Wyington of NJK. Could you bring me up to date, and the rest of 
the committee up to date as to the progress we are making on 
that tunnel, just for a few minutes, give us a capsule picture?
    Ms. Bushue. Sure, absolutely. Well, first, I am going to be 
meeting with him next week, as I am up in New York for the APTA 
PRO conference. I am going to be touring the Hudson-Bergen 
Transit line. I understand that we will be meeting with--I 
think we refer to it as the ARK project.
    Mr. Pascrell. That is correct.
    Ms. Bushue. But as it is today, they are looking to go into 
preliminary engineering. I think we are waiting, as I 
understand it right now, for their financial proposal. I think 
we have part of it. I think they have some pieces that are 
missing. And we have asked for some additional information. But 
we are looking at it, and it is certainly on our radar.
    And you made a really good point about the tunnels. I had 
the pleasure of spending some time up in New York, for two 
days, the MTA gave me an extensive tour of what's going on up 
there. And those projects are extremely complex. The tunneling 
is just totally amazing. I didn't know New York City has really 
a city underneath it, almost, with all the tunneling they have 
involved. But it is a very interesting transit project.
    But we are very much familiar with the ARK project, and we 
are certainly giving it attention, sir.
    Mr. Pascrell. This would be a large step forward for the 
entire area, as you well know.
    Ms. Bushue. Certainly.
    Mr. Pascrell. Mr. Capka, first of all, I want to 
congratulate you on your recent confirmation. During your 
Senate confirmation hearing, you committed to allowing New 
Jersey to continue to follow multi-year funding formulas for 
capital construction projects. I just want you to reiterate 
that for us, if you would, take a minute to do that.
    Mr. Capka. Well, sir, thank you very much first of all for 
your congratulations. I really appreciate that. Secondly, with 
respect to the fiscal constraint process that we and the New 
Jersey DOT are working, we are not so concerned about the 
process that the Department uses to get to its end state. But 
we just want to make sure that the process itself is fiscally 
constrained. In other words, that they have the resources to 
finish what they start.
    I think we are in pretty good shape right now, that we 
won't see any further problems with the way New Jersey is 
handling this. That is our test. It is more the outcome than 
the process of getting there.
    Mr. Pascrell. Thank you.
    Ms. Glassman, you are Acting Administrator?
    Ms. Glassman. Deputy Administrator.
    Mr. Pascrell. Deputy Administrator. Administrator Glassman, 
in all, SAFETEA:LU provided approximately $1.5 billion in 
incentive grant funding to increase vehicle occupant 
protection. As you know, whiplash is the most common and 
annoying type of injury in motor vehicle crashes. It is by far 
the predominant injury in rear impact crashes and generates 
billions of dollars in medical costs. There is innovative 
research being done in North Jersey right now with the goal of 
significantly decreasing these kinds of injuries.
    This approach involves a contoured seat design concept, I 
don't know if you have seen it, that will help control the 
interaction between the torso and the seat back in order to 
preserve the spinal curvatures during a rear impact collision.
    The last upgrade, and correct me if I am wrong, to the 
Federal Motor Vehicle Safety Standard Number 202 on head 
restraints was made in late 2004. This is what my question is, 
my point. What sort of research has NHTSA been involved with 
since then, and are there plans to update whiplash prevention 
regulations in the near future? This is a very critical issue 
with regard to many injuries that are happening throughout the 
United States.
    Ms. Glassman. Yes, sir, it is, thank you for the question. 
We issued a final rule upgrading standard 202 in about 2004. We 
have received many petitions for reconsideration on various 
aspects of the rule, so we continue to do research and to look 
at those petitions. A lot has to do with the level of what we 
call backset, which is how close your head is to the actual 
head restraint. That is a core feature of reducing whiplash and 
rear impact injuries, is making sure there is less movement of 
the torso and the head.
    There's also a considerable amount of research into new 
technologies that will help reduce the incidence of crashes 
occurring in the first place. We are seeing a big shift from 
crash worthiness, or protecting people when the crash occurs, 
into actual crash avoidance, making sure that crashes do not 
occur. We see a lot of technology starting to come into 
vehicles today and new technologies on the horizon which will 
help reduce the incidence of those crashes actually occurring. 
We believe that that will help reduce those injuries quite a 
bit.
    Mr. Pascrell. Mr. Chairman, when you see the number of 
significant injuries that we are talking about, this could have 
an appreciable effect on insurance rates all throughout this 
Country. If we can do this, and if this provides for a large 
hulk of those injuries, I think that is one way, in a huge 
puzzle. But it is one way to begin to bring those huge 
insurance rates down to some degree.
    Thank you. Thank you, Mr. Chairman.
    Mr. Petri. Mr. Cummings, do you have questions?
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Ms. Bushue, SAFETEA:LU modified the definition of a transit 
capital project to include inner-city bus terminals that are a 
part of intermodal projects. These terminals are now eligible 
for FTA funding to the same extent as any other transit capital 
project. This new eligibility is particularly important in 
cities like mine, Baltimore, which are planning new inner-city 
bus-intermodal projects.
    When do you expect that FTA will issue final guidance 
implementing the provisions, and can you describe the process 
that the FTA has developed to help transit agencies implement 
the bus and bus facilities projects identified in the 
SAFETEA:LU bill?
    Ms. Bushue. Yes, Congressman Cummings, I just had to think 
about that for a second. It is a public-private partnership 
that we are very excited about, that inner-city buses can use 
these terminals along with city buses, they can join in 
together. And we have sought comments which ended April 27th, 
and we are collecting those comments, and we hope to have 
guidance published, joint guidance published in the Federal 
Register some time this summer.
    Mr. Cummings. OK. I know that PHMSA is not here, but I 
would like to mention to you all my concern about 
implementation of Section 7131 of SAFETEA:LU, which requires 
the Administrator of the Pipeline and Hazardous Materials 
Safety Administration to enter into a contract with the 
National Academy of Sciences to conduct nine specific research 
studies on the transportation of hazardous materials. I 
understand that the slow release of funds from the Federal 
Highway Trust Fund has delayed initiation of these studies.
    Section 7131 also required that the Secretary of the 
Department of Transportation submit a report not later than six 
months after the enactment of SAFETEA:LU, on the need to 
establish a cooperative research program on hazardous materials 
transportation. I understand that the Department of 
Transportation is waiting to clear the report before its final 
release.
    I am just concerned that this takes place timely and soon. 
I hope that you will take that back to the PHMSA people.
    Mr. Capka. Mr. Cummings, I sure will. I appreciate your 
comment.
    Mr. Cummings. And it was my amendment, that is why I am so 
concerned about it. I already told my constituents I did this 
great thing, and I want to be able to say it's happening.
    Mr. Capka. Sir, we will follow up with you and give you the 
status of where that particular action sits today.
    Mr. Cummings. Just going back, I see I still have a moment, 
Ms. Bushue, thank you very much. Ms. Bushue, let me go back 
into the second part of my question about this whole situation 
with the projects, intermodal projects. Can you describe the 
process that the FTA is going through?
    Ms. Bushue. For this particular one?
    Mr. Cummings. Yes.
    Ms. Bushue. Yes, absolutely. We published guidance January 
31st. After those guidance were published, we received some 
comments, a lot of comments. So we published an addendum to 
those guidance, I believe they were published in March. And 
they closed for comments on April 27th, 2006. But we do 
definitely, we will have final guidance for the joint 
development partnership by this summer, sir.
    Mr. Cummings. It is another concern of ours. We were able 
to get an earmark for a major project, smack dab in the middle 
of my district. And we would just like to know that they are 
going to be able to have the kind of guidance they need to be 
able to do it.
    Ms. Bushue. Absolutely. My trusty staff just gave me a note 
and they said we are working very closely with your office to 
develop some specific projects.
    Mr. Cummings. I thought he was going to say we just 
approved it.
    [Laughter.]
    Mr. Cummings. Thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    I have one or two more questions, but before asking them, 
let me see if anyone else--Mr. DeFazio.
    Mr. DeFazio. Briefly, Mr. Chairman. We have kept the panel 
a long time. Just back to Small Starts, I guess I have two 
concerns, further concerns. One is, I want to be certain that 
we are building, and I have not seen the proposed rules, into 
these rules, prohibitions on fragmentation, that is, people 
have existing large projects, break them up and say, oh, well, 
we have a new project here. So that is one, I would like you to 
address that.
    And the second one is, although you seem quite enthusiastic 
about the construct you are coming up with to implement our 
legal, our legislative mandate, I note that the Administration 
only recommended $100 versus $200 million this year. And the 
appropriators, my understanding, have eliminated the $100 
million and put it over into other projects where it will 
hardly be noticed. So I guess I would like a comment on both 
those things.
    Ms. Bushue. Sure. I share your concern with your first 
point. We will be looking at the proposals very closely to 
ensure, Congressman DeFazio, that that does not happen. I 
always share with the FTA staff, I always get a kick, with all 
due respect to Congressman Pascrell, with the MTA says 
something like, I can't wait for that Small Starts project to 
get up and running. Because one of its benefits was to kind of 
level the playing field for all cities and towns to have a fair 
shake, if you will, on getting transit funding as such.
    As to your second point, the reason that the Administration 
did propose that, or we proposed that $100 million for the 
Small Starts program in fiscal year 2007 was due to the fact 
that the final rules would not be completed until probably 
August 2007. And we thought that $100 million was the 
appropriate investment and down payment for the program.
    Mr. DeFazio. But you did say earlier that you will be 
taking applications in the interim. I mean, how is it you 
recommend less than we sort of assessed. I think there is 
tremendous pent-up demand for these things, and I think your 
legitimate applications will far exceed the $100 million, let 
alone the $200 million, if implemented in the way we envision 
for other innovative street car, bus rapid transit, other sorts 
of things, that could make a major difference in small and mid-
size cities.
    I am concerned that you sort of pre-calculated or guessed 
that, not having yet seen any applications and I am not sure 
what you are going to do, or how we are going to deal with the 
Appropriations Committee, since I guess they interpreted a lack 
of enthusiasm there because of the cut as opposed to your idea 
that perhaps it was just sort of a phasing and implementation 
issue. So hopefully the Administration will express some 
concerns about this move, since you are enthusiastic about it, 
to the Appropriations Committee.
    And then Mr. Chairman, the staff asked me for whatever 
reason to ask unanimous consent that all members have X amount 
of time to submit questions for the record which won't be 
answered. So I ask that, Mr. Chairman.
    [Laughter.]
    Mr. Petri. We will make a good faith effort to answer, 
anyway.
    Other questions? Mr. Blumenauer?
    Mr. Blumenauer. If I could, Mr. Chairman. Just following up 
on Mr. DeFazio's point vis-a-vis the Subcommittee. I would hope 
that our Committee would be pretty aggressive when the bill 
comes to the floor, as we have done in the past, in terms of 
protecting the integrity of the legislation we have worked on.
    And the notion that they have substituted their judgment in 
terms of--the material I have received is very hostile to both 
the intent and the program. And I would hope that the 
Committee, as we have done in the past, would be there pushing 
back. Because we spent a lot of time putting this together. We 
are responding to significant community support around the 
Country. And I just, I am troubled that we would have them 
intervene again, undercutting what we are doing.
    But with Mr. Oberstar not being here, I know he is excited 
that we have half the States already designating the Safe 
Routes to School permanent coordinator, we have 15 that are 
interim, 10 that I am sure are right on the verge. But my 
recollection here is that as part of the Safe Routes to School 
program, we were going to get a report of the School Task Force 
Committee, Safe Routes to School Committee, March 31st. And my 
understanding is, there has been no record that the Committee 
has yet been appointed, let alone delivering the report. Am I 
missing something here, or did you work out something with Mr. 
Oberstar on the side?
    [Laughter.]
    Mr. Capka. Sir, as you well know, Mr. Oberstar has been 
very involved in the Safe Routes to School program. And yes, 
there was a report that was due at the end of March. It was 
submitted toward the end of April. So there was a report. We 
have also brought on----
    Mr. Blumenauer. You actually formally put together the task 
force?
    Mr. Capka. We have formulated a task force. I will have to 
be sure we have brought on the University of North Carolina to 
act as the clearinghouse for that operation.
    Mr. Blumenauer. But there was a task force that was going 
to put together this report. And I don't think they have ever 
been formally--if we could find out what is going on.
    Mr. Capka. Yes, sir, there is a slight problem with the 
task force, because it falls under the Federal Advisory 
Committee Act. So we have a little bit of homework to do before 
we can launch the task force. You are right, that hasn't been 
done yet, but we are in the process of working that issue. We 
have submitted a report but the task force----
    Mr. Blumenauer. That the task force was going to do that 
hasn't yet been appointed? OK. Thank you, Mr. Chairman.
    Mr. Petri. Thank you, Mr. Blumenauer.
    Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman. I 
appreciate this hearing. I am sorry I was late arriving, I had 
a markup in another committee.
    But I do want to ask a question of Ms. Bushue, the Acting 
Administrator of the FTA. First, we appreciate the fact that 
you are working with us on transportation issues already, 
especially the Dallas Area Rapid Transit.
    Secondly, I want to say that the FTA bus program for 
intermodal terminals, including the inner-city bus portion of 
these terminals, is very, very important in my district. We 
have lots of poor people and lots of miles to travel in Texas. 
If you haven't ever been to Texas, I will try to get you around 
to see it.
    The setaside is similar to the inner-city bus intermodal 
program proposed in the Administration's SAFETEA proposal and 
in legislation that I sponsored. So I believe that development 
of intermodal terminals and inclusion of inner-city buses in 
these terminals should be a high priority at the FTA, as they 
would provide increased convenience, efficiency and 
seamlessness for passengers dependent on public transit. I just 
want to know when or how does the FTA intend to implement this 
setaside program.
    Ms. Bushue. Thank you, Congresswoman Johnson. I will be 
coming to Dallas on July 3rd for the opening ceremony of the 
extension of your light rail line. So I will look forward to 
seeing you there.
    Actually, your colleague, Congressman Cummings, had the 
same question, and just to let you know that April 27th we 
closed the Federal Register notice for comments from the 
guidelines that we had outlined for joint use of the public and 
private, or the intermodal terminals for public and private 
use. We hope to have those guidelines ready this summer, 
hopefully no later than August.
    Ms. Johnson. Thank you. Now, be assured that not all the 
poor people are in Dallas, so don't go there looking for them. 
They are all over Texas, though. So if you come to Dallas and 
see how beautiful it is and what a wonderful place, that is all 
through. But we have that other, too, that might not be as 
obvious, where you will be.
    Ms. Bushue. Absolutely. You do have a wonderful light rail 
system, and the Secretary, I think, will definitely be joining 
us. We look forward to traveling there July 3rd. Thank you.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Mr. Petri. Well, let's see. I have two--did you have 
another question?
    Just two quick questions, one for Ms. Bushue. And that has 
to do with the New Freedom program to help disabled people with 
access. Do you know when the final guidance for the New Freedom 
program will be published and what kinds of specific activities 
will be eligible under the New Freedom program? We are getting 
inquiries from various constituencies and so on. I think we had 
some legislative language we were watching like hawks to see 
how you actually implemented.
    [Laughter.]
    Ms. Bushue. Yes, you are, Mr. Chairman. You have a very, 
very agressive staff that has been watching us very closely. 
But they do a great job. We enjoy our partnership with them.
    First, I would like to say that we did issue the guidance, 
the draft guidance, in March. It was amazing, the number of 
comments. And I have to tell you, I know--do I sound 
enthusiastic about transit? I am. It is just, I just can't tell 
you how exciting really the industry is and the communities are 
across the Country. I like to say transit is hot. And it really 
is. There is just so much enthusiasm out there about it, so 
much going on. And as for the New Freedom program, we received 
over 190 comments, which is unbelievable. So there is a lot of 
interest.
    And we are going through those comments, and we hope to 
post a final circular, final guidance in July. But it is our 
intent, and of course, it is not final as we continue to go 
through the comments that we receive, but as for the New 
Freedom, it is our intent that it would support services, new 
services, and beyond the ADA. I think the issue was or, but 
FTA's intent is to focus on new services, and services beyond 
the Americans With Disabilities Act.
    Mr. Petri. Thank you. There is one member of this panel who 
has been not acting, but confirmed for some time, Mr. 
Kaveeshwar. But we can't let you off without a question, sir, 
because we are interested in how you are doing in administering 
the competitive selection process for the UTC, or university 
transportation center program.
    Mr. Kaveeshwar. Thank you for asking that question, Mr. 
Chairman. Let me just give you a very quick run-down on what we 
are doing with respect to the competitive process. The regional 
UTCs, there were 10 of them, and that competition is just 
closed. They opened it on March 15th and the application was 
received on June 1st. We intend to finish our final selections 
by July 14th.
    The next competition, that is the Tier 1 UTCs, and that 
competition just opened on June 1st. The applications are due 
on August 15th, and we intend to finish the selections by 
September 29th. So we intend to award all of the Tier 1 as well 
as the regional UTCs by the end of this fiscal year.
    We also want to thank this Committee for strengthening this 
program over the TEA-21. We are very excited about it, and we 
are hoping to use the expanded program and connect its research 
to the Department's priorities.
    Mr. Petri. Thank you. And this hearing is adjourned.
    [Whereupon, at 3:52 p.m., the subcommittee was adjourned.]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

</pre></body></html>
